           AUDIT OF THE

OFFICE ON VIOLENCE AGAINST WOMEN

      GRANT AWARDED TO THE 

 SOBOBA BAND OF LUISEÑO INDIANS

     SAN JACINTO, CALIFORNIA


     U.S. Department of Justice

   Office of the Inspector General

            Audit Division



    Audit Report GR-90-13-006

           August 2013

                       AUDIT OF THE

            OFFICE ON VIOLENCE AGAINST WOMEN

                  GRANT AWARDED TO THE 

             SOBOBA BAND OF LUISEÑO INDIANS

                 SAN JACINTO, CALIFORNIA


                       EXECUTIVE SUMMARY


      The U.S. Department of Justice Office of the Inspector General, Audit
Division, has completed an audit of Violence Against Women Grant
2007-TW-AX-0014, in the amount of $149,940, awarded by the Office on
Violence Against Women (OVW), to the Soboba Band of Luiseño Indians
(Soboba), San Jacinto, California. The purpose of the OVW Grant was to:
(1) decrease the incidence of violent crime against Indian women,
(2) strengthen the capacity of Indian tribes to exercise their sovereign
authority to respond to violent crimes committed against Indian women, and
(3) ensure that perpetrators of violent crimes committed against Indian
women are held accountable for their criminal behavior. As of July 11,
2011, Soboba had expended $89,011 (59 percent) of the total grant award
of $149,940.

Audit Results

      The purpose of our audit was to determine whether costs claimed
under OVW Grant 2007-TW-AX-0014 were allowable, reasonable, and in
accordance with applicable laws, regulations, guidelines, and terms and
conditions of the grant. The objective of our audit was to review
performance in the following areas: (1) internal control environment;
(2) drawdowns; (3) program income; (4) expenditures including payroll,
fringe benefits, indirect costs, and accountable property; (5) matching;
(6) budget management; (7) monitoring of sub-recipients and contractors;
(8) reporting; (9) award requirements; (10) program performance and
accomplishments; and (11) post end date activity. We determined that
program income, indirect costs, matching, and monitoring of sub-recipients
and contractors, were not applicable to the grant.

      As a result of our audit, we found that the grantee complied with
requirements related to drawdowns, accountable property, budget
management, and award requirements. However, we found weaknesses in
the areas of expenditures, reporting, and program performance and
accomplishments. Specifically, we found the following exceptions:
     •	 $102,396 in grant funds which Soboba drew down and that did not
        result in Soboba accomplishing the goals of the grant. 1

     •	 $1,765 in salary expenses were improperly charged to the grant as
        the employees’ time records did not specify that the corresponding
        time worked was grant-related; and

     •	 A total of three Progress Reports were submitted late, one being 29
        days late. Community education data reported on two Progress
        Reports was not adequately supported and victim services data on
        one Progress Report contained discrepancies.

      These items are discussed in detail in the Findings and
Recommendations section of the report. Our report contains three
recommendations to OVW. Our audit objective, scope, and methodology are
discussed in Appendix I and our Schedule of Dollar Related Findings appears
in Appendix II.

      We discussed the results of our audit with Soboba officials and have
included their comments in the report, as applicable. In addition, we
requested written responses to the draft audit report from Soboba and OVW
and appended those comments to this report in Appendices III and IV,
respectively. Our analysis of both responses, as well as a summary of action
necessary to close the recommendations can be found in Appendix V of this
report.




     1
         The total of $102,396 represents drawdowns as of September 23, 2011.


                                         - ii –
                                  TABLE OF CONTENTS


INTRODUCTION .................................................................................1

       Background .................................................................................2

       OIG Audit Approach......................................................................2


FINDINGS AND RECOMMENDATIONS.................................................4

       Internal Control Environment.........................................................4

       Drawdowns .................................................................................5

       Expenditures ...............................................................................6

       Accountable Property....................................................................7

       Budget Management.....................................................................7

       Reports.......................................................................................8

       Additional Award Requirements.................................................... 11

       Program Performance and Accomplishments.................................. 11

       Post End Date Activity................................................................. 12

       Conclusion................................................................................. 12

       Recommendations ...................................................................... 13


APPENDICES:

I    - OBJECTIVE, SCOPE, AND METHODOLOGY ................................ 14


II   - SCHEDULE OF DOLLAR-RELATED FINDINGS............................ 16


III - THE SOBOBA BAND OF LUISEÑO INDIANS RESPONSE

         TO THE DRAFT REPORT......................................................... 17


IV   - OFFICE ON VIOLENCE AGAINST WOMEN RESPONSE

          TO THE DRAFT REPORT ........................................................ 21


V     - OFFICE OF THE INSPECTOR GENERAL ANALYSIS AND SUMMARY

          OF ACTIONS NECESSARY TO CLOSE THE REPORT ................ 23

                         AUDIT OF THE

              OFFICE ON VIOLENCE AGAINST WOMEN

                    GRANT AWARDED TO THE

               SOBOBA BAND OF LUISEÑO INDIANS

                   SAN JACINTO, CALIFORNIA


                                INTRODUCTION


      The U.S. Department of Justice Office of the Inspector General (OIG),
Audit Division, has completed an audit of Violence Against Women Grant
2007-TW-AX-0014, in the amount of $149,940, awarded by the Office on
Violence Against Women (OVW), to the Soboba Band of Luiseño Indians
(Soboba), San Jacinto, California. The purpose of grant was to:
(1) decrease the incidence of violent crime against Indian women,
(2) strengthen the capacity of Indian tribes to exercise their sovereign
authority to respond to violent crimes committed against Indian women, and
(3) ensure that perpetrators of violent crimes committed against Indian
women are held accountable for their criminal behavior. As of July 11,
2011, Soboba had expended $89,011 (59 percent) of the total grant award
of $149,940.

                                 EXHIBIT 1

                       OVW GRANT AWARDED TO SOBOBA

                               AWARD         AWARD
            AWARD                                                    AWARD AMOUNT
                             START DATE     END DATE 2
      2007-TW-AX-0014             09/01/07           08/31/11              $ 149,940
  Source: Office of Justice Programs

      The purpose of our audit was to determine whether costs claimed
under the grant were allowable, reasonable, and in accordance with
applicable laws, regulations, guidelines, and terms and conditions of the
grant. The objective of our audit was to review performance in the following
areas: (1) internal control environment; (2) drawdowns; (3) program
income; (4) expenditures including payroll, fringe benefits, indirect costs,
and accountable property; (5) matching; (6) budget management;
(7) monitoring of sub-recipients and contractors; (8) reporting; (9) award
requirements; (10) program performance and accomplishments; and
(11) post end date activity. We determined that indirect costs, program


      2
         The Award End Date includes all time extensions that were approved by the Office
on Violence Against Women.
income, matching, and monitoring of sub-recipients and contractors were
not applicable to the grant.

Background

       Soboba is located at the base of the San Jacinto Mountains bordering
the City of San Jacinto, California, which is approximately 85 miles east of
Los Angeles, California. On June 19, 1883, approximately 3,172 acres were
set aside to establish the Soboba Indian Reservation for the permanent
occupation and use of the Soboba people. The reservation today
encompasses nearly 7,000 acres, 400 of which are devoted to residential
use. The Soboba Band has a current enrollment of approximately 1,200
tribal members, who are governed by an elected tribal council that consists
of five tribal members.

      The purpose of the Office on Violence Against Women is to provide
federal leadership in developing the nation’s capacity to reduce violence
against women and administer justice for and strengthen services to victims
of domestic violence, dating violence, and sexual assault, and stalking.

OIG Audit Approach

      We tested Soboba’s compliance with what we consider to be the most
important conditions of the grant awards. Unless otherwise stated in our
report, the criteria we audited against are contained in the Office of Justice
Programs (OJP) Financial Guide (Guide), award documents, Code of Federal
Regulations, and Office of Management and Budget (OMB)
Circulars. Specifically, we tested:

      •	 Internal Control Environment – to determine whether the
         internal controls in place for the processing and payment of funds
         were adequate to safeguard the funds awarded to Soboba and
         ensure compliance with the terms and conditions of the grant.

      •	 Drawdowns – to determine whether drawdowns were adequately
         supported and if Soboba was managing receipts in accordance with
         federal requirements.

      •	 Expenditures – to determine whether costs charged to the grant,
         including payroll and fringe benefits, were accurate, adequately
         supported, allowable, reasonable, and allocable. In addition, we
         tested expenditures related to the purchase of accountable property




                                     -2­
        and equipment to determine whether Soboba accurately recorded
        expenditures in its accounting system.

     •	 Budget Management – to determine whether there were
        deviations between the amounts budgeted and the actual costs for
        each category.

     •	 Reports – to determine if the required financial, and programmatic
        reports were submitted on time and accurately reflected grant
        activity.

     •	 Additional Award Requirements – to determine whether Soboba
        complied with award guidelines, special conditions, and solicitation
        criteria.

     •	 Program Performance and Accomplishments – to determine
        whether Soboba made a reasonable effort to accomplish stated
        objectives.

     •	 Post End Date Activity – to determine, for the grant that has
        ended, whether Soboba complied with post end date award
        requirements.

      The results of our audit are discussed in detail in the Findings and
Recommendations section of this report. We discussed the results of our
audit with Soboba officials and have included their comments in the report,
as applicable. Our report contains three recommendations to OVW. The
audit objective, scope, and methodology are discussed in Appendix I.




                                    -3­
              FINDINGS AND RECOMMENDATIONS

           We found that the grantee generally complied with
           requirements related to drawdowns, accountable
           property, budget management, and award
           requirements. However, we found weaknesses in
           the areas of expenditures, reporting, and program
           performance and accomplishments. Soboba drew
           down $102,396 in grant funds without completion of
           grant objectives. Grant expenditures of $1,765
           related to salary costs were not supported. A total of
           three Progress Reports were submitted late, one
           being 29 days late. In addition, community
           education data reported on two Progress Reports
           was not adequately supported and victim services
           data on one Progress Report contained
           discrepancies.

Internal Control Environment

      We reviewed Soboba’s policies and procedures, Single Audit Report,
and financial management system to assess its risk of noncompliance with
laws, regulations, guidelines, terms and conditions of the grant. We also
interviewed individuals from Soboba’s grant management, accounting, and
finance staff regarding internal controls and processes related to payroll,
purchasing, and accounts payable functions. Finally, we observed the
financial management system, as a whole, to further assess risk.

       Our review of any potential internal control issues disclosed in the
Single Audit Report, or found in our review of Soboba’s financial
management system, are discussed below in the Single Audit and Financial
Management sections, respectively. In addition, we reviewed Soboba’s
accounting and administration policies, interviewed Soboba’s Chief Financial
Officer, and observed Soboba’s disbursement procedures with accounting
staff. Based on our review, including observations of Soboba’s operations,
we determined that there was adequate segregation of duties, and Soboba
adequately tracked grant receipts and expenditures. By interviewing the
responsible Soboba officials in charge of the grants, we obtained an
understanding of Soboba’s internal controls and determined that the internal
controls in place for the processing and payment of funds were adequate to
safeguard grant funds and ensure compliance with grant terms and
conditions.




                                    -4­
Single Audit

       According to Office of Management and Budget Circular A-133, non-
federal entities that expend $500,000 or more in federal awards in a year
shall have a Single Audit conducted. At the start of our fieldwork, the most
recent single audit available for Soboba was for fiscal year (FY) 2009. We
reviewed Soboba’s FY 2009 Single Audit Report and found that the
independent auditors had issued an unqualified opinion with respect to the
Federal Grants Fund of the Tribe as of December 31, 2009. 3 The audit
report did not reflect any material weakness with respect to Soboba’s
internal controls.

Financial Management System

      The OJP Financial Guide requires that all grant fund recipients
“establish and maintain accounting systems and financial records to
accurately account for funds awarded to them.” This requirement includes
adequate maintenance of financial data to record and report on the receipt,
obligation, and expenditure of grant funds. Furthermore, the guide
stipulates that grantees must account for each award separately and may
not commingle grant funds. In our review of Soboba’s financial
management system we found grant-related transactions were separately
tracked from all other funding. Further, we found that the system accurately
accounted for grant-related receipts and expenditures, and provided for
adequate record keeping and reporting of grant-related activities.

Drawdowns

      According to the OJP Financial Guide, grant recipients should request
funds based upon immediate disbursement or reimbursement needs.
Specifically, recipients should time their drawdown requests to ensure that
federal cash-on-hand is the minimum needed for disbursement or
reimbursement to be made immediately or within 10 days. Soboba officials
stated that grant funds were drawn down on a reimbursement basis. Based
on our review, we found that Soboba drew funds on a reimbursement basis
and adhered to the Guide’s federal cash-on-hand requirement with one
exception. Soboba drew $5,523 approximately 8 months in advance on
February 12, 2009. All other drawdowns in excess of expenditures were
       3
         The audited financial statements presented only Soboba’s Federal Grants Fund,
which did not represent the financial position of the Soboba Band of Luiseño Indians as a
whole. The Federal Grants Fund, a special revenue fund of the Soboba Band of Luiseño
Indians, accounts for all activities of Soboba which are funded solely or partially from
federal and state awards.




                                           -5­
found to have been disbursed within 10 days of the drawdown date.
Further, we reviewed Soboba’s drawdown records and verified that grant
funds were deposited in Soboba’s bank accounts. Given the dollar amount
of the draw down and the fact that this was the only instance of Soboba
drawing down funds more than 10 days in advance, we consider this
instance to be an anomaly and as a result, do not make a recommendation.

Expenditures

      As of July 11, 2011, Soboba expended a total of $89,012 on the grant;
the expenditures were comprised of personnel, fringe benefits, accountable
property, travel, supplies, and other costs. We judgmentally selected a
sample of transactions in order to determine if costs charged to the grant
were allowable, properly authorized, adequately supported, and in
compliance with grant terms and conditions. The expenditures we selected
included travel, supplies, consulting, and other expenditures. We reviewed
supporting documentation including purchase orders, invoices, receipts, and
check copies. We selected a non-statistical sample of 27 non-personnel
transactions totaling $27,815 (31 percent). Eight of the sample transactions
were selected from the highest dollar transactions in the universe and the
remaining sample transactions were judgmentally selected. Based on our
testing, we did not identify any reportable discrepancies for the grant with
respect to the 27 non-personnel transactions selected.

Personnel

      We selected a judgmental sample of two non-consecutive pay periods
to test, which included salaries and fringe benefit expenditures totaling
$1,765. We reviewed supporting documentation, such as time and
attendance records, to determine: (1) if the positions paid with grant funds
appeared reasonable with the stated intent of the program and were
consistent with the OJP-approved budget, (2) whether the salaries of the
employees paid with grant funds were within a reasonable range, and (3) if
the salary and fringe benefit expenditures were adequately supported.

      We obtained a list of employees paid using grant funds from the Chief
Financial Officer. We compared the list of personnel working on grant
related activity to the approved positions in the OJP-approved grant budget.
We determined that the positions were within the intent of the program,
consistent with the approved budget, and that the salaries paid were
reasonable. We reviewed Soboba’s payroll records and supporting timecards
and found that all four timecards tested were not properly supported.




                                    -6­
       Specifically, we noted that the work efforts of two employees were
allocated pro rata to more than one project. The OJP Financial Guide states
that where salaries apply to the execution of two or more grant programs,
cost activities, project periods, or overlapping periods, proration of costs to
each activity must be made based on time and effort reports. Furthermore,
2 C.F.R. 225 requires that activity reports reflect an after-the-fact
distribution of the actual activity of each employee. While timecards were
provided for each employee, they did not reflect the after-the-fact
distribution of the actual activity of each employee; instead employee hours
were prorated to each activity based on a pre-determined ratio. As a result,
we question the $1,765 tested as unsupported.

Accountable Property

      According to the OJP Financial Guide, property acquired with grant
funds should be used for the purposes stated in the grant application.
Further, grant recipients must maintain records on the source of property
items that were acquired using grant funds. Soboba had an accountable
property policy that defined fixed assets as equipment with a value of
$1,000 or more and a useful life of 2 years or more.

      We judgmentally selected from Soboba expenditure records a sample
of two accountable property items (100 percent) that included a computer
and projector. We found that all sampled accountable property items were
properly recorded and identified as federally funded. In addition, we
physically verified all sample property items and determined that the items
were being utilized for grant-related purposes.

Budget Management

      The OJP Financial Guide and 28 C.F.R. 66 require prior approval from
the awarding agency if the movement of dollars between budget categories
exceeds 10 percent of the total award amount for awards over $100,000.
Based on our review of the award package and grant solicitation, we
determined that the grant exceeded the $100,000 threshold and was subject
to the 10 percent rule. Our analysis of the budget as compared to actual
expenditures found that there were no budget deviations that required OVW
approval.




                                     -7­
Reports

      According to the OJP Financial Guide, award recipients are required to
submit quarterly Federal Financial Reports (FFR) and semi-annual Progress
Reports. These reports describe the status of the funds, compare actual
accomplishments to the objectives of the grant, and report other pertinent
information. We reviewed the FFRs and Progress Reports submitted by
Soboba to determine whether each report was accurate and submitted in a
timely manner.

      Overall, we found that the financial reports that Soboba submitted
were timely and accurate. However, Soboba did not submit all of its
Progress Reports in a timely manner and two of the reports submitted
contained errors. We discuss the results of our testing in more detail below.

Federal Financial Reports

       According to the OJP Financial Guide, the quarterly FFRs are due no
later than 30 days after the end of each quarter, with the final FFR due
within 90 days after the end date of the award. 4 We reviewed the four most
recent FFRs submitted prior to our entrance in July 2011 to determine if
Soboba submitted these reports on time. We found that Soboba submitted
all the reports in a timely manner.

                                   EXHIBIT 2

                     FEDERAL FINANCIAL REPORT HISTORY

                        OVW GRANT 2007-TW-AX-0014

   REPORT                               REPORT    DATE                          DAYS
    NO .          REPORTING PERIOD     DUE DATE SUBMITTED                       LATE
      12         04/01/10 - 06/30/10          07/30/10        07/22/10             0
      13         07/01/10 - 09/30/10          10/30/10        10/26/10             0

      14         10/01/10 - 12/31/10          01/30/11        01/25/11             0

      15         01/01/11 - 03/31/11          06/29/11        04/26/11             0
   Source: OIG analysis of FFRs


       4
          In October 2009, the financial reporting requirement for grantees transitioned
from quarterly Financial Status Reports (FSR) to quarterly Federal Financial Reports (FFR).
Throughout the report, we refer to both report formats as FFRs. Prior to this transition
quarterly FFR’s were due no later than 45 days after the end of each quarter with the final
FFR due no later than 120 days following the end date of the award. We tested timeliness
of report submission based on the standard applicable as of the end of each reporting
period.




                                           -8­
      We also reviewed each FFR to determine whether they contained
accurate financial information related to actual expenditures for the award.
According to the OJP Financial Guide, award recipients must report program
outlays and revenue on a cash or accrual basis in accordance with their
accounting system. We compared the four most recently submitted FFRs to
Soboba’s grant accounting records. We found the FFRs submitted to be
accurate.

                               EXHIBIT 3

           ACCURACY OF SOBOBA’S FEDERAL FINANCIAL REPORTS

                       OVW GRANT 2007-TW-AX-0014

                                                          DIFFERENCE
                                                         BETWEEN FFRS
                              EXPENDITURES                   AND
REPORT                        REPORTED ON  GRANT-RELATED  ACCOUNTING
 NO .       REPORTING PERIOD      FFR       EXPENDITURES   RECORDS
  12       04/01/10 - 06/30/10         $     7,966        $    7,966       $ 0
  13       07/01/10 - 09/30/10               9,618             9,618           0
  14       10/01/10 - 12/31/10              12,088            12,088           0

  15       01/01/11 - 03/31/11              10,532            10,532           0
Source: OIG analysis of OVW data and Soboba’s accounting records

Progress Reports

       According to OJP Financial Guide, Progress Reports are due
semiannually for discretionary awards and annually for block or formula
awards. For this discretionary award, Soboba was required to submit the
required Progress Reports semi-annually within 30 days of the end of the
reporting period. We reviewed the most recent eight Progress Reports to
determine if Soboba submitted the reports on time. We also reviewed the
last full year of Progress Reports submitted to OVW for accuracy. We found
that three of the eight Progress Reports reviewed for timeliness were not
submitted in a timely manner and two reports reviewed for accuracy
contained discrepancies.




                                           -9­
                               EXHIBIT 4

                        PROGRESS REPORT HISTORY

                       OVW GRANT 2007-TW-AX-0014

      REPORT                               REPORT      DATE       DAYS
       NO .       REPORTING PERIOD        DUE DATE   SUBMITTED    LATE
         1       07/01/07 - 12/31/07      01/30/08    11/13/08        29

         2       01/01/08 - 06/30/08      07/30/08    11/17/08        3

         3       07/01/08 - 12/31/08      01/30/09    02/02/09        3

         4       01/01/09 - 06/30/09      07/30/09    07/30/09        0

         5       07/01/09 - 12/31/09      01/30/10    01/15/10        0

         6       01/01/10 - 06/30/10      07/30/10    07/12/10        0

         7       07/01/10 - 12/31/10      01/30/11    01/27/11        0

         8       01/01/11 - 06/30/11      07/30/11    07/28/11        0
      Source: OIG data analysis of OVW data

     The OJP Financial Guide states that:

             . . . the funding recipient agrees to collect data
             appropriate for facilitating reporting requirements
             established by Public Law 103-62 for the
             Government Performance and Results Act. The
             funding recipient will ensure that valid and auditable
             source documentation is available to support all data
             collected for each performance measure specified in
             the program solicitation.

      Performance measures from the grant solicitation included: the
number and percentage of arrests relative to the number of police responses
to domestic violence incidents, the number of tribes receiving grant funding,
and the number of victims receiving requested services.

      We reviewed Soboba’s Progress Reports to determine if the reports
accurately reflected grant activity and accomplishments. We found that
Soboba’s Progress Reports with periods ending December 31, 2010,
through the period ending June 30, 2011, accurately reflected grant
accomplishments with two exceptions. Specifically, we found that the dollar
values reported for victim services were understated by 12 percent in the
December 2010 report, and the total number of participants receiving
community education was not supported for either reporting period.



                                       - 10 ­
We recommend that OVW ensure that Soboba develops procedures that
require submission of timely, accurate, and adequately supported Progress
Reports.

Additional Award Requirements

      We reviewed Soboba’s compliance with specific program requirements
in the grant solicitation as well as special conditions included in its grant
awards. We determined that Soboba generally complied with grant
requirements and conditions.

Program Performance and Accomplishments

       According to the revised work plan, approved by OVW the purposes of
the grant were to: (1) strengthen tribal codes and ordinances; (2) initiate
and establish partnerships with local law enforcement in developing a crime
statistic database particular to Soboba; (3) present to the Soboba Tribal
Council, for review, a tentative agreement with local law enforcement
detailing protocols for sharing information to accomplish a complete
database on Violence Against Women Act activities; (4) develop rules,
policies, regulations, and procedures on regulatory aspects of each code for
utilization by Tribal Enforcement; and (5) prepare and disseminate to all
tribal members copies of potential codes and ordinances in areas of Violence
Against Women Act. Soboba also requested, and received approval from
OVW for changes to the scope of work which added community outreach,
Victim Advocate training, and purchases of necessary supplies to the grant
objectives. The revised grant budget also supported salaries paid to a
Domestic Violence Coordinator and a Legal Administrative Assistant.

      We discussed progress with the Grant Manager, reviewed relevant
grantee documentation as well as information submitted to OJP’s grant
management system. We found that as of the grant closeout completed in
January 2012, Soboba had drafted domestic violence codes for approval by
the Soboba council and dissemination to tribal members, completed Victim
Advocate training, and developed rules and policies for use by tribal
enforcement. Soboba had also hired the two positions described in the grant
documents, performed community outreach, and made efforts to create a
domestic violence database and establish partnerships with local law
enforcement. However, Soboba had not disseminated the proposed
domestic violence code to all Tribal members and discussed these materials
with partners in local law enforcement. Soboba officials advised that they
were unable to achieve these goals because Soboba’s tribal council chose to
discontinue development of tribal law enforcement and replace it with a



                                    - 11 ­
Community Public Safety department which would have no law enforcement
powers. As a result the tribe suspended development and dissemination of
codes and ordinances pending adoption of policies and procedures for the
new Soboba Department of Public Safety. Soboba officials also advised that
they experienced other significant complications that hindered completion of
grant goals. Specifically, Soboba officials stated that tensions with local law
enforcement over shootings that occurred in 2008 hampered progress in
establishing partnerships with local law enforcement. Further, Soboba
officials stated that difficulties in obtaining timely responses from OVW
impacted their ability to effectively manage the grant. Soboba did not
request an extension as officials did not believe an extension would facilitate
completion of the suspended grant objectives, and at the time they were
unaware they could obtain additional extensions to complete the grant.
Based on the preceding, Soboba chose to discontinue the project.
Subsequently, OJP de-obligated the remaining $47,544 (32 percent) of grant
funds and OVW finalized closeout of the grant in January 2012, prior to
completion of the award objectives. Therefore, we did not review the
progress of the remaining goals. Because Soboba failed to accomplish its
grant goals before the grant end date, we question the total amount that
Soboba drew down ($102,396). 5

Post End Date Activity

      According to award documentation, the OVW Grant ended on
August 31, 2011. Further, Soboba did not request an extension. We
reviewed the post end date activity, including submission of the final
progress and financial reports and found no reportable exceptions.

Conclusion

       Based on our audit, we determined that the financial management
system used by Soboba provided for adequate record keeping and reporting
of grant-related activities. We also determined that Soboba’s expenditures
were within the approved budgeted constraints. However, expenditures of
$1,765 related to salary costs were not supported, and two Progress Reports
contained inaccurate and unsupported data. With regards to the Progress
Reports, we found that the values reported for victim services was
understated, and total participants for community education reported were
not supported. Additionally, we assessed program performance of Soboba in
meeting the grant objectives and overall accomplishments. We found that
as of the grant close out in January 2012 Soboba had not completed goals

      5
          The total of $102,396 represents drawdowns as of September 23, 2011.




                                         - 12 ­
associated with the grant and did not request an extension to complete the
grant. We did not review the progress of the remaining goals as OVW
finalized closeout of the grant in January 2012, prior to completion of the
award objectives.

Recommendations

     We recommend that OVW:

      1.	   Remedy the $1,765 in unsupported payroll.

      2.	   Ensure that Soboba develops procedures that require submission
            of timely, accurate, and adequately supported Progress Reports.

      3.	   Remedy the $102,396 in grant funds that Soboba drew down
            and that did not result in Soboba accomplishing the goals of the
            grant.




                                   - 13 ­
                                                             APPENDIX I


            OBJECTIVE, SCOPE, AND METHODOLOGY

      The purpose of our audit was to determine whether costs claimed
under Grant 2007-TW-AX-0014 were allowable, reasonable, and in
accordance with applicable laws, regulations, guidelines, and terms and
conditions of the grant. The objective of our audit was to review
performance in the following areas: (1) internal control environment;
(2) drawdowns; (3) program income; (4) expenditures including payroll,
fringe benefits, indirect costs, and accountable property; (5) matching;
(6) budget management; (7) monitoring of sub-recipients and contractors;
(8) reporting; (9) award requirements; (10) program performance and
accomplishments; and (11) post end date activity. We determined that
matching, indirect costs, program income, monitoring sub-recipients were
not applicable.

      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objectives.

      Our audit scope included a review period for our audit that focused on,
but was not limited to, the period beginning September 1, 2007, through the
date of our entrance conference on July 11, 2011. In addition, we reviewed
post end date activity occurring subsequent to the entrance conference.

      We tested compliance with what we consider to be the most important
conditions of the grant. Unless otherwise stated in our report, the criteria
we audit against are contained in the OJP Financial Guide, award documents,
Code of Federal Regulations, and Office of Management and Budget (OMB)
Circulars.

       We reviewed a judgmentally selected sample of transactions that were
recorded in Soboba’s grant related accounting records as of July 11, 2011.
This included 27 expenditures related to Grant 2007-TW-AX-0014.

      We did not test internal controls for Soboba taken as a whole or
specifically for the grant program administered by Soboba. An independent



                                   - 14 ­
Certified Public Accountant conducted an audit of Soboba's financial
statements. The results of this audit were reported in the Single Audit
Report that accompanied the Independent Auditors’ Report for the year
ending 2009. The Single Audit Report was prepared under the provisions of
Office of Management and Budget Circular A-133. We reviewed the
independent auditor’s assessment to identify control weaknesses and
significant noncompliance issues related to Soboba or the federal programs
it was administering, and assessed the risks of those findings on our audit.

      In addition, we reviewed the timeliness and accuracy of FFRs, and
Progress Reports; and evaluated performance of grant objectives. However,
we did not test the reliability of the financial management system as a
whole, nor did we place reliance on computerized data or systems in
determining whether the transactions we tested were allowable, supported,
and in accordance with applicable laws, regulations, and guidelines. We also
performed limited testing of information obtained from OJP’s Grants
Management System (GMS) and found no discrepancies. We thus have
reasonable confidence in the GMS data, which we verified for the purposes
of our audit. However, the OIG has not performed tests of the GMS system
specifically, and we therefore cannot definitively attest to the reliability of
GMS data.




                                    - 15 ­
                                                                      APPENDIX II


            SCHEDULE OF DOLLAR-RELATED FINDINGS

QUESTIONED COSTS: 6
                                                               AMOUNT         PAGE
Unsupported Costs:

      Unsupported Payroll Expenditures (OVW)                  $     1,765        7

Unallowable Costs:
     Funds drawn without completion of grant
     objectives                                               $ 102,396         12

TOTAL QUESTIONED COSTS:                                       $ 104,161

Less: Duplicative Questioned Costs 7                              <$1,765>

TOTAL DOLLAR RELATED FINDINGS                                 $ 102,396




      6
          Questioned Costs are expenditures that do not comply with legal, regulatory, or
contractual requirements, or are not supported by adequate documentation at the time of
the audit, or are unnecessary or unreasonable. Questioned costs may be remedied by
offset, waiver, recovery of funds, or the provision of supporting documentation.
      7
         Some costs were questioned for more than one reason. Net questioned costs
exclude the duplicate amount.




                                         - 16 ­
                                                                                                        APPENDIX III

 THE SOBOBA BAND OF LUISEÑO INDIANS
    RESPONSE TO THE DRAFT REPORT


                                       Soboba Band of Lulseiio Indians
                                       P.O. BOX 487 • SAN JACINTO, CA 92581- TELEPHONE (951) 654-2765




                                                            OFFICE OF TRIBAL COUNCil




June 11, 2013


C/o David J. Gasch kc. Rcgion<l] Audit Manager
U.S. Department of Justice
Office of the Inspector General
Sa n Francisco Reg ional Aud it Office
1200 Bayhi ll Drive, Suite 201
San Bruno, CA 94066

Re: Response to Drart Audit Report Dated May 22, 2013 re: Audit of the Office on Violence
Against Women (OVW) Grant No. 2007·TW-AX-0014

Enclosed please find the Sobaba Band of Lu iseno Indi ans' (Soboba) response to the above
referenced report recommendations. Each 010 recomm endation has been stated with Soboba's
response:

      L Remedy the $1,765 in unsupported payroll.

Respo nse:
Under the specific circumstances identified in the draft report , Soboba has implemented practices
to ensure proper allocation of grant funds for salaries of employees who are funded by more than
one grant.

A check fo r $1,765 is being ma iled under separate cover to the Office of Violence Against
Women.

      2. Ensure that Soboba develops procedures that requ ire submission of timely, accurate, and
         adequately supported Progress Reports.

Response:
Soboba has dedicated certain employees to ensure grant compliance. An initial assessment of
Triba l grants has bee n completed and they have been catalogued into an interim database which
is updated as grants are reponed on, awarded, re newed, and/or closed out. The current procedure
serves to ensure tim ely, accurate and adequately support [progress] reports to grantors by the
various Tribal departments. The next phase of the cataloguing is to migrate all the grant data into
a specific software program that will all ow permission based access by Soboba staff,

Re,<pon<to 10 Draft I\lKlil Rcpon D.t~d M"~ 22. 2013 ' "'
I\ooil ofOVW G."n, Nc>, 2007_1W _I\x ·nUH                                                                 Page 1




                                                               - 17 ­
management and Tribal Council. The new software will improve upon the current process by
creating a more accessible and user friendly system as well as to promote greater information
sharing and accountability. The new software system should be acquired with the next few
mOnths.

   3. Remedy the $102,396 in grant funds that Soboba drew down and that did not result in
      Soboba accompl ishing the goals of the gnmt.

Response:
On page 3 of the draft report, DIG Audit Approach, Program Performance 1I//{/
Accolllp{ishlllem.~, the OIG states that it tested this area to determine whether Soboba made a
"reasonable effort" to accomplish stilted objectives. On page 11 of the draft report, Program
Performalll'e ami Arxolllpli:;Jmrellls, OIG set out the following, placed in table form for case of
reference and comparison:



                                                                             met grant
ordimmces                         approval by Soboba Council         requirements
                                  and dissemination to tribal

                                                          ,                a      a
partnerships with local law       domestic violence database         requirements
enforcement in developing a
crime statistic database

                     11  i' I
Council, for review, a            partnerships with local law        requirements   "
tentative agreement with local    enforcement
law enforcement detai ling
protocols for sharing
information to accomplish a
                        VAWA

                                                                             met grant
              I procedures on     for use by Tribal Enforcement      requirements
regulatory aspects of each
code for use by Tribal

                                                                           a      grant

                                                                                  grant




                                                                                              Page 2




                                            - 18 ­
Administrative Assistant                                   in grant documents                 requirements
salaries support
Prepare and disseminate to all                             Sobob;l had not disseminated       ·Soboba determined to have
tribal membe rs copies of                                  the proposed domestic              not met grant requirements
pOlential codes and ordinances                             violence code to all Trib;tl
in areas of VAWA                                           members and discussed these
                                                           materials with partners in local
                                                           law enforcement


By its own analysis utilizing its standard of "reason;lblc efforts", OIG has found that Soboba
demonstrated reasonable completion of the gr;mt illld has completed all deliverabJcs, except for
one, as discussed below.

Soboba was determined to have not met the grant requirement of "the dissemination 10 all Tribal
members, copies of the Domestic Violence Code and discussion of sueh with local law
enforcement. "

I. Dissemination.
          • Soboba provided documentation that the Domestic Violence Code was
              disseminated to the Tribal Council and the Domestic Violence Tas k Force (which
               includes Tribal members, Trillill Law Enforcement, and Tribal Staff).
          • The Domestic Violence Code was also discussed in the overall plan for tribal
              justice, at law enforcement and Tribal justice presentations at General Council
              meetings and Tribal Law Enforcement Initiative Community Days.

To state Ihat Soboba did not meet this grant deliverable because the code was not physically
copied and handed out to all Tribal members is unreasonable. Disseminate means to spread,
disbllrse, circlilate, or broadCllst information. Soboba has met these criteria.

2. To all Tribal members.
            • Under Soboba\ system of governance, the General Council is the governing body
                of lhe Tribe. It is composed of all voting members of the Tribe; who must be age
                18 or older. The General Council may choose to delegate its authority to a duly
                elected Tribal Council under cert<lin conditions. Genemlly, when an issue arises
                that requires a decision by the General Council; the issue will be placed on the
                meeting agenda or added at the meeting. However, these agendas are only
                disseminated to members of the General Council, not all, Tribal members.

Thcrefore, to require Soboba to disseminate ,\ proposed Tribal law to non-eligible voting
members, which are mostly children, is not consistent with long-standing Tribal law and
practice. This factor is therefore unre;lson,lbie ,md is being defined in a way that is contrary to
the norms of most systems or democr;lcy.




k.p""" ..   [}r." ""''''   ~'ron D>I«I !o<' yll. 1Il11."
"odi, .rovwc .... "'.. lOOl·TW·A)(.(I(Ill                                                                          Page 3




                                                                     - 19 ­
3. DIscuss the Domestic Violence Code with Local utw Enfo rcement.
            • Soboba shared with the DIG the ser i ou~ tens ions th,lt ignited with local law
               enforcement during the grant term . Despite these strained relat ions, Soboba was
               able 10 consistcnt ly meet with loeal law enforcement. While many o f those
               meetings focused on priority issues of the day, local law enforcement was aware
               of So bob a's ongoing plans to evaluate and implement positive changes to its
               overall T riba l justice structure. These discussions included tr ibal lllw
               enforcement, tribal courts, and trib,ll lnws, such as the Domest ic Vio lence Code.
               Communication continues todny as a number of issues related to law enforcement
               rem'lin.

The fael thal no ~pecifie meeling took place to discuss the Domestic Violence Code is
unreasonable and contrary 10 Soboba's system of governance. The Domestic Violence Code is a
proposed Tribal law. While local law enforcement plays a role in Soboba's policing of its Tribal
lands based on Federal law, it docs not have a role in guiding or deciding which laws the T ribc
will consider or cnact. T his is an esscnti,1 1Tribal government function that must be considered
within the Tribe.

For the above stated reasons, Soboba believes it has demonstrated reasonab le completion or the
grant de liverables reviewed by D IG. Additionall y, Soboba did not receive all awarded grant
funding because it chose to discontinue the remainder of the grant due to the enormity of
challenges stated in Soboba's reports and audit with O IG. TIlercrore, Soboba should not be held
acco untable for funds it did not receive. Overall, Soboba has demon~trated reasonab le
completion of the grant deliverables for which it is responsible; the refore, no penalty is
warranted with regard to this grant award.

Sincerely,

(j.,dt~?JU4-.!e '//J£tuI?Cv
Rosemary Morillo, Tribn l Ch,!irwoman




~       '"   On~   Aoo;I;, R,,,,,,, D... d ""1 n. 2fl)) '"
",",rtofOVW G".. No. 2llJ7·1W· AX.m1'                                                       Page 4




                                                             - 20 ­
                                                                                                   APPENDIX IV

   OFFICE ON VIOLENCE AGAINST WOMEN
     RESPONSE TO THE DRAFT REPORT

                                                               l .S. Ul'parlll1ellllJf Ju:.lil-e


  ...

                                                                  June 28. 201.,




MF.i\10RANIlUi\1


TO:                                 [):lVid J. Gaschl..c
                                    Rcgio n:Jl Audit/'. lanagcr
                                    San Fr::mdsto Regiona l Audit Onice

FRQ;o.I:                            &'3 Hanson ./Q        ~
                                                          J\
                                    Acting Director     tr"'\r"
                                    Of\1ce Oil Violence Againsl Women

                                    Rodney    S.unud~       --R-b
                                    Audit Li:llson·Staff Accountant
                                    Office.)I1 VIOlence Ag,tin,t \\ .'m ..·n

SUllJECl                            Audit of the Olliee on Vl olen.:.: Against Women Gron t A\\ardcd              lO
                                    the Solx)ha Band of Luiscno Indluns. San Jacimo. C:difomia




 ["his memOTlllulum i~ in ri:spon~e to ~ our ..:orrcspondelll:<,: dat.:d 1\ 1<.l} 22. 2013 tr:msillittlllg th.:
aoo\"e Draft AuJit Report for !:>obo;lba Brmd 01 Lui:<eno Indians. \\'~. cQn~idcr the subject fi.'port
!\'~Ill\".:d anJ rCl/uest written acc.:pt:UlCe Ilflhis :;lction from )Ollr olliee.

The report eonlllins thrce recom11lcnd::uions. S 1,765 in unsupported pl!) roll (Ind S 102.396 in
grant funds that SoOOba drc\\ down illld th::!! did nOI resu lt in Sohob3l!ceomp lbhing Ih ... guuls 1)1'
the grnnt. The Ollie... on Violence Ag::!inst WOI11~·n is eommined 10 working \\ ilh Ihe gmnlce to
address eneh recommendation and bring thcmto a dOSl' as quickly <.l~ possible. The fo1\(mil1g is
our an~l} sis of the :llIdi! recollllllcndations.


      1) Kl' medy Ih l'! S 1,765 in unslI llllO rt ed Ila) ru ll.

           We agree wil h this n.'conllll<:ndalirln. \\ c will coorJinntl' \\ith the Sotx.ha I ri~ 10
           re lllcd} the S l. U.5 in IIn~lIpponl'd p;.l~ ru\l.




                                                    - 21 ­
     2) Ensure Ihllt Sobo ba d evelops procedures Ilml r equire s ubmission of timely,
        Acc ura le, anti ad equately su pported Progress !{epo rls.

         We agree with the recommenda tion. We ..... ill coordina te wilh SOOOb3 Tri be [0 ensure
         that SoOOba develops procedures [Iw \ req uir.: submission oftimdy.       (lCC Ur.L IC.   :Uld
         adequately supported Progress Repo rts.

     3) Re nu·ti) t hl' S102,3':16 in g r an l fund s Ih al Sobubn tlrc\\ d on n lmd Iha l d id nOI n 'suh
        in Soboh fl accOInpJis hing Ihe gOllts of th e gnln l.

         We ,lgrcc with the rt(:()mmcndaliul\. Wl' \\ ill coordinate with the SoOOba Tribe to
         remedy $1 02.396 in grunt fu nds that SoOOba drew down and th l l d id no t res ult in SoOOba
         accomplishin g the go:.!!s orlhe gran t.

We ap preciate the opportunity 1 re view and comm(1\1on the draft report. If you ha\'c any
                                  0
4uestions or requirt: addition al information. p!L'ase contac t Rodney Samuels of my st~ IT at
(202) 514-9820.

cc     Angela Wood
       Accuumin g Officer
       O ffice on Vio lence A!;ainst Women (OVW)

       Loui~e M. Duhil!11d . Ph D.
       Acting Ass isli1ut Dir~'c to r
       Audit Liaison Group
       Justice Mnn;lgemenl Divisio n

       Lorraill Edmo
       Tribal DepUl Y Director
       Office on Vio lence Against    WO Il1~' n




                                                      2




                                                   - 22 ­
                                                            APPENDIX V

              OFFICE OF THE INSPECTOR GENERAL

             ANALYSIS AND SUMMARY OF ACTIONS

               NECESSARY TO CLOSE THE REPORT


       The OIG provided a draft of this audit report to Soboba and the OVW.
Soboba’s and OVW’s responses are incorporated in appendices III and IV of
this report, respectively. The following provides the OIG’s analysis of the
responses and summary of actions necessary to close the report.

Recommendation Number:

1.	 Resolved. OVW concurred with our recommendation that it remedy
    $1,765 in unsupported payroll. Soboba stated that it has implemented
    practices to ensure proper allocation of grant funds where employees
    are funded by more than one grant. Soboba also stated that a total of
    $1,765 will be remitted to OVW.

    This recommendation can be closed when we receive evidence from
    OVW that the $1,765 in unsupported payroll has been remedied.

2.	 Resolved. OVW concurred with our recommendation to ensure that
    Soboba develops procedures that require submission of timely,
    accurate, and adequately supported Progress Reports.

    In its response Soboba stated that it has implemented procedures and
    will acquire a new software system which will ensure timely, accurate,
    and adequately supported Progress Reports. According to its response,
    OVW will coordinate with Soboba to ensure that Soboba develops
    procedures that require submission of timely, accurate, and adequately
    supported Progress Reports.

    This recommendation can be closed when OVW provides evidence that it
    has coordinated with Soboba and determined that Soboba’s new
    procedures ensure accurate and timely Progress Reports that are
    adequately supported.

3.	 Resolved. OVW concurred with our recommendation that it remedy
    the $102,396 in grant funds that Soboba drew down and that did not
    result in Soboba accomplishing the goals of the grant. In its response,
    Soboba did not concur with our recommendation and stated that the



                                   - 23 ­
OIG’s own analysis suggests that Soboba demonstrated reasonable
completion of the grant and has completed all deliverables, except for
one, as discussed below.

In our draft audit report, we concluded that as of the grant close out in
January 2012 Soboba had not completed goals associated with the grant
and did not request an extension to complete the grant. Specifically, we
found that Soboba had not disseminated the proposed domestic violence
code to all tribal members and discussed these materials with partners
in local law enforcement as required. Based on these circumstances, we
concluded that Soboba failed to accomplish all of its grant goals before
the grant end date and therefore, we questioned the total amount that
Soboba drew down ($102,396).

In its formal response, Soboba stated that it distributed the domestic
violence code to the Tribal Council and the Domestic Violence Task
Force, both entities that Soboba stated included tribal members, tribal
law enforcement, and tribal government employees. According to
Soboba’s response, it believed that by distributing the domestic violence
code to the Tribal Council and the Domestic Violence Task Force, it had
satisfied the grant goal of distributing the domestic violence code to all
tribal members and discussing this material with partners in local law
enforcement. Soboba also stated that to require it to disseminate a
proposed tribal law to non-eligible voting members, which are mostly
children, is not consistent with long-standing tribal law and practice.
Further, Soboba stated that the fact that no specific meeting took place
to discuss the Domestic Violence Code is unreasonable and contrary to
Soboba’s system of governance.

We also note that subsequent to the exit conference for this audit,
Soboba provided to the OIG additional documentation concerning it’s
achievement of grant objectives. The documentation provided included
a timeline and narrative of events occurring during the life of the grant,
its correspondence with OVW, and supporting documentation regarding
the completion of outstanding grant deliverables. However, we found
that the documents provided did not satisfy the goal stated in the
grant’s revised work plan submitted by Soboba in January 2008, and
approved by OVW, which stated that Soboba would “[p]repare and
disseminate to all tribal members copies of potential codes and
ordinances in the area of [Victim Witness Assistance].” The documents
provided included, but were not limited to, information such as the
Soboba’s general membership meeting minutes, and notes and
memoranda regarding grant activities and meetings. We found that the



                                - 24 ­
minutes provided did not contain mention, or presentation of, the draft
domestic violence code to Soboba’s general membership. Likewise, the
notes and memoranda which referenced meetings with tribal members
and local law enforcement that Soboba claimed related to the draft
domestic violence codes do not support the occurrence of such
meetings.

Based on the above, we do not believe that Soboba completed the goal
of disseminating the domestic violence code to all tribal members nor
was there evidence that it discussed these materials with partners in
local law enforcement.

This recommendation can be closed when we receive evidence from
OVW that the $102,396 in grant funds that Soboba drew down and that
did not result in Soboba accomplishing all of the goals of the grant has
been remedied.




                               - 25 ­
